BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief for the Cato Institute as Amicus Curiae
in Support of Petitioner in 20-1195, Kansas Natural
Resource Coalition v. U.S. Department of the Interior;
Scott de la Vega, in his official capacity as Acting
Secretary of the Interior; U.S. Fish and Wildlife Service;
and Martha Williams, in her official capacity as
Principal Deputy Director of the U.S. Fish and Wildlife
Service, was sent via Two Day Service to the U.S.
Supreme Court, and via Two Day and e-mail service to
the following parties listed below, this 31st day of
March, 2021:
Jonathan Calvin Wood
Pacific Legal Foundation
3100 Clarendon Blvd., Suite 610
Arlington, VA 22201-5330
(202) 888-6881
jwood@pacificlegal.org
Counsel for Petitioner
Elizabeth Prelogar
Acting Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive

I Suite 102

Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Ilya Shapiro
Counsel of Record
CATO INSTITUTE
1000 Mass. Ave. NW
Washington, DC 20001
(202) 842-0200
ishapiro@cato.org
Christine Carletta
KING & SPALDING LLP
1700 Pennsylvania Ave. NW
Washington, DC 20006
(202) 737-0500
ccarletta@kslaw.com

Counsel for Amicus Curiae Cato Institute
Robert D. Popper
Judicial Watch, Inc.
425 Third Street, SW
Washington, DC 20024
rpopper@judicialwatch.org
202-646-5172

Counsel for Amici Curiae Judicial Watch, Inc., and the
Allied Educational Foundation

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 31, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~d,

( )-i- ti, tl

Notary Public

2:>

II c)a a I

tu~

[seal]

JOHN D. GAU-ASHER
Notary Public, State of Ohio
My Commission Ex; ;r,?s
.:-~ti'.!?r 11·< ..,. 3
1

